No. 20-1088

In the Supreme Court of the United States
DAVID and AMY CARSON, as parents and next friends of O.C.; and
TROY and ANGELA NELSON, as parents and next friends of A.N. and R.N.,
Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,
Respondent.
CERTIFICATE OF SERVICE
I, Nicholas J. Bronni, counsel for Amici Curiae, States of Arkansas, et al., hereby
certify that on this day, September 10, 2021, pursuant to this Court’s Rule 29.3, I
caused 3 physical copies of the Brief of Amici Curiae States of Arkansas, et al., in
Support of Petitioners to be served by third-party commercial carrier for delivery
within 3 calendar days, and an electronic copy to be served by email on the following
counsel:
Michael E. Bindas
Counsel of Record

Aaron M. Frey
Maine Attorney General

INSTITUTE FOR JUSTICE
600 University Street, Suite 1730
Seattle, Washington 98101
(206) 957-1300
mbindas@ij.org

Sarah A. Forster
Assistant Attorney General
Counsel of Record

Counsel for Petitioners

OFFICE OF THE MAINE
ATTORNEY GENERAL
6 State House Station
Augusta, Maine 04333-0006
(207) 626-8800
sarah.forster@maine.gov

Christopher C. Taub
Chief Deputy Attorney General

Counsel for Respondent

I further certify that all parties required to be served have been served.

NICHOLAS J. BRONNI
Arkansas Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, Arkansas 72201
(501) 682-6302
nicholas.bronni@arkansasag.gov

